    Dec, 14, 2009 3:16PM                                                                                 No, 0315          p, 2



(                                      NaUounl n~lIron<1 Pn~~e)lgel' CorporAtion
                                           Offico of the lnspectol' Genoml
                                               Ofllce ofJu'Vestlgnt!ons

                                                   CLOSING REl'OR'f
                                                                                                   becembel' 14,2009
          TO:


          FROM:
                          ChlofInspoctor

          SUBIDCr:        _ S a f e l y Committee Funds Case /I 09·186

          llACrWnO'OND:
          On becembel' 3, 2009, Offico ofit.h.OiIniiSPiieiictiioir.G.eneral
          sent 1\ Management repOit to               •              ~~~~~~~~~!I===~
          ~ the Safety Committee pm'chasing a soda vending maohine to benefit tho                1 1
          _        crew bllse, Fm1hel' informntion was that no repolts had bcon fonvarded to Management
          regarding the fimds collect~d by lhe Safety Committee.

         Tho pUl'/ioso of this invasiigation WM to establish whether the Safety Committee's purchase
         compliod with Amll'ok Folioy PERS·24 (Titled Employee Vending Machine and food services
         f\1Ild),
(        01 RECOMMENDA'fmNS:.
         01 substantiated thnt the _ Safely Committee flmds were not collected             ai' mainlailled ill
         accordAnce wltll Amtrak Policy PERS·24 for lhel reasons which follow:
             A)     Amlmk Policy PllRS·24 applies to all vending machlnos and food selvices that Me
                    provldod exolnstvely fOf employees,
             B)     Tho minutes ofth. SQfoly Committe\>' failed to reflect allY dlsCIlssion 01' oppositlolllo
                    the purchase of the vending rilachine,(See nOle HC and F)
             C)     The Safety COII\llIittee nevel' exerolsed n vote to the expenditure of ftlllds fOl' th"
                    purchase of the vending machine. The policy slnles, "Tlte cOJllmlllef! W'" flr.10 j'oftJ
                     01/ requests/or lise ofllie velldlllg cO/lll/I/sslolljllltils cOlIs/slellllVitlilltlspoflcy,"
             D)      Thc titnds collected by Ihe Safety Committee have been withdrawn f!'Om the bank
                     and is being lIlaintalned AS fl cash only ftCCOI)JIt by    The Policy stales, "Ai
                     Me" local/Oil wltere VOl/(lIl1g 11/IIC"'"o$ (/1/(1 foot! services exlSf, (I 10cIIl cfleckllig
                     flCCOIl1" III11S1 he estl/hlls"erf. 1IIe IIOCOllllt sliollld 6e fifler! "Employeo Velldlllg
                     COlI/mls$lolI FIIIIII" velllllllg IIIlIcllllle IIIIIl/ood service recelplS IVIII he deposileil ill
                     fills IICCOIIIII. "
             E)     He Safety Commiltee has not established fl Pl'otocol WllOl'olfi soniol' management Or
                    the local deslgnatee cnn be apprised of lha commitlee's actions. Although minutes
                    have beon wl'itten by Rilpointed members of fhe committee those ml!mles have not
                    boon fonvarded to senlol' management fOl' review, The polioy states, "Tite sell for
                    IIII11/(/ge1ll6111 off/cll/TIVIll (leslgllOie one cOIlI/lllllee memhor io ho respOJl$lble for
                    1111111111/(111118 lite cllecklJlg (lccOII/II 111111 ,elilferl recorrls, litis /lIcllldes /11l1klllg
                    deposlls, ,ecollcll/llg lite IIcoO/I/II, Isslll1l8 citec/(s (flld seCl/rlllg clwcll sloerl,"
            F)      The Safety Committee failed fo I'CpOlt to seniol' management I'ogal'dlng the activilles
                    of the Safety Committee as required, The policy stoles, "Qllllrlerty, II1'0poI'I offlmll
                    I/cllvlly will be IsslIed by Ifle sell/or 1/llIllI/gemellt of/lo/III (0 ihe /oclli DMslolI


                                                             I
        Dec.
         .. 14. 2009 3: 16PM                                                                            No.0315        P. 3



    (                     MIlI/agel' ....!11 Ismille lIIe reporl, tl,a seu/or II/{l/Iageflleul ojJ/clal should ellS1//'o
                          11/(/1 file f/ccoI",II/ffs ham properly recollcileil.... "

              01 Identified that               improperly hanellcel tho Sofety Committee fllnd,             by acting
              Independently, and withont the approval oflhe Safety Committeo mombors. OJ fOlmel            that hIs aot
              was toward tho ovemll good of the Spfety Committee and the employees in the a'·ea.
              bolloved, that his                 allow the Sofety Committee to become mOre                 financially



                  l)     _s,
              independent.
              Safety Committee



                         with
                                                 Management should considor bringing the _
                                     into compliallce with Amtml( polley PER.24.
                                                                                                           orew base


                                           III1i/ateml p\l~~haso of tho vending machine was made without illput
                          fi'om other members of tho committee. Members of the Safely Committee agreed,
                                               that it was a good iden to purchase Iho vcncllngmachlne. Howeve,',
                         there was lIevel' a vote by Ihe mombers to mako $ltoh n l'l'ge purchase (92% of the
                          money collected) And Icovlng only $72.33 in cash (Note: Ihe filnds are not In A bAnk
                         01' credit lin ion to ovoid pRying $12 monthly bank fecs). Tho minntes should reflect
                         at Icn,1 aftor Iho fact that the Safely Commiltee memhers are ill agreement with Iho
                         purchase.                       .
                  2)     The Safely Committee should hold an electioll of officor.~ to include n trcasurcr nnd
                         SocretR'Y. 8uoh nn election should excludo mQmbors of management who 01'0 11,01'0
                         to SUPI'OIt the committee and not to direet its octivity.
                  3)     The Sofety Committee must open a looal checking account titled "Employee Vend ing
                         Commission Pund."
                  4)     The Sccrela'y of Ihe Sofely Committee must ensure IhAt mlll\ltes am properly kopt
                         olld fOlwflI'ded to seniol' management within the SWb, illillimely mAO ncr.
(                 5)     The Treaslll'e,' of the Safely Committee should provide the committee and senior
                         monogementwith a financial roport qnA,1crly.
                  6)     MAnAgement ~hould advise and iuform                     thAt his role III tho committeo is to
                         nct ns a facilitator; as such he must Ie pm to delegolo.

             MANAGEM~NTJS         ltESl'ONS:E,
             On             14, 2009, 01 received • • • • •                    management response fI'om_
                             stated:

              . .~T~h.o==~~~~~manngement concut's wilh tho rCCOIlIlI1Clldalioll" and will enSlll'O thAt the
             •              Safety Committee whtch is composed of ngreomont nnd 1l0n"O(ll'eomelll employees,
              t'evlow and cOlllply with Amtrak policy as stnled Inl'ERS-24. The !ol/owing recommendntlons
              will be implementeel:
                   o Tho Sofely Committee will hold an election of officers
                   o   Tho Safety Committee Is to review, vote and apprOVe rcquests
                   o A fund aecoullt will be estoblished ot a local finanelallnstltution
                   o Acoumte alld P"O)lOI' monthly and quarterly rccordkeoping proceduros"

             ltECOMMfo;Nl)ATIONS:
             Closo Ihis cnso. iiiii••••• managoment has implemellied all                      the recommendatlolls
             modo by 01.



             Doputy Inspector oellernIlCounsel _ _ _ _         -tt.,..~""~~'-------- Date          /   .<)zhtPtf
                                                               2
